U.S. Department of Energy
Office of Inspector General




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & FY 2014
U.S. Department of Energy, Office of Inspector General


 Table of Contents

                                                         Page

     Message from the Inspector General                   ii

     At a Glance: Performance Results for FY 2012         iii

     Overview                                             1

     Our Mission and Vision                               1

     Our Organization                                     2

     Our Mandate                                          5

     External Factors Challenging Our Organization        5

     Our Management Challenges                            6

     Measuring Our FY 2012 Performance                    7

     Our FY 2013 and FY 2014 Performance Plan             16

     Appendix A

         Audit Work Plan for FY 2013                      25

         Inspections Work Plan for FY 2013                29

     Appendix B

         Investigative Work Plan for FY 2013              30




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                Page | i
U.S. Department of Energy, Office of Inspector General


 Message from the Inspector General

     I am pleased to present the Office of Inspector General’s combined Fiscal Year (FY) 2012 Annual
     Performance Results and FYs 2013 and 2014 Annual Performance Plan.

     Over the past year, a substantial portion of our oversight responsibilities focused on programs
     and operations related to the American Recovery and Reinvestment Act of 2009 (Recovery Act).
     Since its inception, our goal has been to work with management to maximize the impact of the
     Department’s Recovery Act efforts, and to do so in an atmosphere of the utmost accountability
     and transparency. The performance results highlighted in this report demonstrate the
     accomplishments in this arena as well as the Department’s overall progress toward achieving
     greater economy, efficiency, and effectiveness in its sizable inventory of missions and
     operations. As Recovery Act-related work winds down, our commitment remains to work with
     Department managers to assist in their efforts.

     During this time of austerity, limited resources will demand thoughtful and consistent program
     choices to maximize the effectiveness of the Department’s mission. We look forward to
     continued collaboration with the Department’s senior management and program officials to
     advance the interests of the U.S. taxpayers.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                Page | ii
U.S. Department of Energy, Office of Inspector General


     At a Glance: Performance Results for FY 2012

     The OIG continues to make positive contributions to the Department’s mission-related
     priorities. Some highlights of our work in FY 2012 include:


            Total Reports Issued                                                                  85

               Recovery Act Reports                                                               23

               Audit Reports                                                                      52

               Inspection Reports                                                                 10

            Funds Put to Better Use                                                    $ 22.1 million

            Dollars Recovered (Fines, Settlements, and Recoveries)                     $ 25.2 million

            Criminal Convictions                                                                  23

            Suspensions and Debarments                                                            36

            Potential Recoveries from Open False Claims Act Investigations            $185.7 million

            Civil or Administrative Actions                                                       92

            Hotline Complaints and Inquiries

               Received                                                                        5,761

               Processed Immediately/Redirected/No Further Action                              5,193

               Processed for Further Review and Adjudicated                                      568




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                             Page | iii
U.S. Department of Energy, Office of Inspector General


 Overview

     This report presents the goals, objectives, and strategies for measuring the OIG’s FY 2012 actual
     performance and FYs 2013 and 2014 planned activities. The goals, objectives, and strategies
     included in this document are used to plan, measure and report on OIG results. The OIG’s goals
     are:

            Promote Presidential reform initiatives, Secretarial mission priorities, and Congressional
             requests;
            Improve economy and efficiency, and reduce waste, fraud, and abuse within the
             Department; and
            Support the taxpayer.


 Our Mission and Vision

     The mission of the Office of Inspector General is to promote the effective, efficient, and
     economical operation of the Department of Energy (Department) through audits, inspections,
     investigations, and other reviews to detect and prevent waste, fraud, abuse, and violations of
     law. This is accomplished by being a highly effective organization that promotes positive
     change by identifying opportunities for improvements in the performance and efficiency of the
     Department’s programs and operations.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                   Page | 1
U.S. Department of Energy, Office of Inspector General


 Our Organization

     The OIG is organized into two major functional areas and a corporate support office:

            Office of Audits and Inspections
            Office of Investigations
            Office of Management and Administration

     The OIG has 13 offices located throughout the country.


                                  Office of Audits and Inspections

     Audits
     The Office of Audits (Audits) provides internal and contracted audit activities for Department
     programs and operations, including the National Nuclear Security Administration (NNSA) and
     the Federal Energy Regulatory Commission (FERC). The office strives to provide reliable,
     credible financial and performance information to senior management, the Congress, and the
     taxpayers. Resources are concentrated on economy, efficiency and program reviews, while
     maintaining sound oversight of the financial statement audit. The organizational structure of
     the office helps to ensure that audit work provides comprehensive coverage over Department
     organizations, programs, and operations while meeting the Department's evolving needs.

     A risk-based process is used for identifying areas for audit coverage. Specific areas with known
     or emerging risks and the greatest vulnerabilities are identified. This process allows the
     organization to conduct program performance reviews that address Presidential initiatives; the
     Secretary’s mission priorities; OIG-identified management challenges; as well as Congressional
     interests. A significant portion of audit resources is directed toward meeting OIG statutory
     audit responsibilities in the financial and information technology areas.

     Audits has scheduled 105 reviews to start in FY 2013. Many non-discretionary tasks from
     external sources impact the workload and may require postponement or cancellation of
     planned work to accommodate these demands. The planned Audits workload for FY 2013 is
     summarized in Appendix A.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                  Page | 2
U.S. Department of Energy, Office of Inspector General


     Inspections
     The Office of Inspections (Inspections) conducts performance, allegation-based and ad-hoc
     inspections, as well as special inquiries in response to concerns raised by Congress,
     senior Department managers, and others.

     Although Inspections plans a significant portion of its annual work, it retains flexibility so that it
     can promptly address concerns and allegations received during the course of the year. When
     planning its performance inspection work, Inspections identifies and prioritizes topics
     responsive to Presidential initiatives; the Secretary’s mission priorities; OIG-identified
     management challenges; as well as Congressional interests. Inspections are initiated with
     consideration given to their significance and potential impact on Department programs and
     operations.

     Inspections has scheduled 32 reviews to start in FY 2013. In light of the continued concerns
     over homeland security, Inspections is focusing its resources to address critical safety and
     security issues affecting Department programs and operations. The planned Inspection
     workload for FY 2013 is summarized in Appendix A.

                                        Office of Investigations

     The Office of Investigations (Investigations) conducts investigations into alleged violations of
     law that impact Department programs, operations, facilities and personnel. Priority is given to
     investigations of suspected violations of criminal and civil statutes, as well as serious
     administrative misconduct. Criminal Investigators within Investigations work closely with
     Department of Justice prosecutors and other Federal, State, and local law enforcement
     organizations utilizing a full range of law enforcement authorities, such as carrying firearms,
     applying for and executing search warrants and making arrests. However, the work of
     Investigations extends beyond the conduct of investigations. The office also identifies
     opportunities for improving the economy and efficiency of Departmental programs and
     operations by issuing reports that recommend positive change. Investigative accomplishments
     are measured by cases opened in the areas most vulnerable to fraud; investigations accepted
     for prosecutive action; cooperative efforts with other law enforcement agencies; the timeliness
     of referrals and recommendations to management; and proactive initiatives. Through
     accomplishments in those areas, Investigations plays a major role assisting the OIG in
     promoting the efficient, effective and economical operation of the Department, including
     NNSA.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                       Page | 3
U.S. Department of Energy, Office of Inspector General


                            Office of Management & Administration

     The Office of Management and Administration directs the development, coordination, and
     execution of overall OIG management and administrative policy and planning. This
     responsibility includes directing the OIG’s strategic planning process, financial management
     activities, personnel management and security programs, administrative support services, and
     information resources programs. In addition, the staff members from this office represent the
     Inspector General at hearings, negotiations, and conferences on budget, financial, managerial,
     and other resource matters. The staff also coordinates activities of the Council of Inspector’s
     General on Integrity and Efficiency. The office is organized into two divisions: Office of Human
     Resources and Office of Information Technology, Financial and Administration.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                  Page | 4
U.S. Department of Energy, Office of Inspector General


 Our Mandate

     As mandated by the Inspector General Act of 1978, as amended, the Office of Inspector General
     (OIG) promotes the effective, efficient, and economical operation of the Department, including
     NNSA and FERC.


 External Factors Challenging Our Organization

     Various external factors impact the OIG’s ability to meet its performance goals. These factors
     include the following:

            Hotline allegation reviews significantly impact planned work. The implementation of
             the Recovery Act has given rise to an increase in Hotline complaints resulting in reviews.
             Audits and Inspections experienced a 64 percent increase in the number of reviews
             conducted as a result of Hotline allegations in FY 2012 compared to FY 2008.

            Congressionally mandated work demands a relatively large portion of OIG resources.
             This mandated work includes, among other things, work required by the Federal
             Information Security Management Act of 2002, the Improper Payments Elimination and
             Recovery Act of 2010, and the recently passed Government Charge Card Abuse
             Prevention Act of 2012.

            The OIG also responds to a significant number of external requests. During FY 2012, the
             OIG conducted 11 Congressional briefings and 7 testimonies and responded to 15
             Congressional inquiries. In addition, occasionally the Department may request an OIG
             review on specific issues it considers sensitive and/or high priority. For example, in FY
             2012, the OIG assisted the Department in reviewing security issues associated with the
             Y-12 complex.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                   Page | 5
U.S. Department of Energy, Office of Inspector General


 Our Management Challenges

     To increase our audit coverage of management contractors, we planned to increase audit
     staffing to authorized levels by September 30, 2012. We successfully met this milestone.
     However, our audit coverage of contracts, grants and other procurements is still not optimal.
     Our limitation in this area can be linked to three primary causes:

            The Department’s diverse and broad mission that continues to expand;
            The Department’s significant operational management challenges; and
            OIG’s high attrition rate for journeyman level auditors.

     The Department’s mission to ensure security and prosperity by addressing energy,
     environmental and nuclear challenges is one of the broadest in the Federal Government. The
     Department’s mission continues to expand as it takes on new guaranteed loan programs to
     promote renewable energy. In addition, the mission becomes more complex as the nation’s
     nuclear stockpile continues to age. Finally, the Department is currently facing significant
     operational challenges as a result of duplicative functions that exist throughout the
     organization. These additional challenges create additional oversight responsibilities. The
     additional oversight responsibilities coupled with the challenge our organization faces in
     retaining qualified journeyman level auditors in a highly competitive workforce market, has
     caused us to implement a risk-based approach to auditing. We use the risk-based approach to
     focus our finite resources on those areas within the Department that have the greatest impact
     on the security and prosperity of the country. As a result, we are not always able to provide
     optimal coverage of contracts, grants and other procurements.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                 Page | 6
U.S. Department of Energy, Office of Inspector General


 Measuring Our FY 2012 Performance

     The OIG measures its performance against long-term and annual goals set forth in OIG planning
     documents. During this reporting period, the OIG generally achieved its FY 2012 performance
     goals.

                                                     Goal 1

                              Promote Presidential reform initiatives,
                     Secretarial mission priorities and Congressional requests.

     Objective 1
     Conduct reviews seeking positive change in the Department relating to the implementation of
     Presidential reform initiatives, the Secretary’s mission priorities, and Congressional requests.

     Objective Leader – Deputy Inspector General for Audits and Inspections


       Performance Measures                               Accomplishments

       1a. At least 75 percent of audit reports will      Exceeded Goal – Audits and Inspections
           address Presidential, Secretarial, and OIG     86 percent of audit reports issued addressed a
           initiatives, priorities, and/or challenges     Presidential, Secretarial, OIG initiative, priority,
           as identified in FY 2012.                      and/or challenge.

       1b. At least 30 percent of inspection reports      Exceeded Goal – Audits and Inspections
           will address safety or security-related        50 percent of inspection reports issued
           topics.                                        addressed safety or security related topics.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                      Page | 7
U.S. Department of Energy, Office of Inspector General


                                                     Goal 2

              Improve economy and efficiency, and reduce waste, fraud, and abuse
                                  within the Department.

     Objective 2
     Concentrate OIG efforts on issues that have the greatest impact and usefulness to the
     Department.

     Objective Leader – Deputy Inspector General for Audits and Inspections


       Performance Measures                               Accomplishments

       2a. Ensure that 100 percent of performance         Met Goal – Audits and Inspections
           reviews include an analysis of program         100 percent of performance audits and
           accomplishments and the use of metrics         inspections completed included an analysis of
           to measure results.                            program accomplishments and the use of
                                                          metrics to measure results.

       2b. Ensure that 57 percent of performance          Exceeded Goal – Audits and Inspections
           audits include recommendations leading         97 percent of all performance audits issued
           to demonstrable cost savings, program          included demonstrable cost savings, program
           efficiencies, and/or funds put to better       efficiencies, and/or funds that can be put to
           use.                                           better use.

       2c. Complete five follow-up reviews annually       Exceeded Goal – Audits and Inspections
           to determine the status and efficacy of        A total of 10 follow-up reviews (7 performance
           corrective actions.                            audits, 3 performance inspections) were
                                                          completed to determine the status and efficacy
                                                          of corrective actions.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                 Page | 8
U.S. Department of Energy, Office of Inspector General



       Performance Measures                              Accomplishments

       2d. By June 30, 2012, complete an annual          Exceeded Goal – Audits and Inspections
           risk-based programmatic assessment            Annual risk-based programmatic assessments
           that considers OIG institutional              for the Department, NNSA, and program
           knowledge; past program performance;          activities were completed in May 2012.
           funding levels; Presidential, Secretarial,
           and congressional concerns; Recovery
           Act initiatives; and, input from
           Department program managers.

       2e. Ensure 80 percent of planned                  Exceeded Goal – Audits and Inspections
           performance audits and inspections            91 percent of our planned performance audits
           address high-risk areas as identified in      and 86 percent of inspections addressed high-
           the OIG annual risk-based programmatic        risk and sensitive areas identified in the OIG
           assessments.                                  annual risk-based programmatic assessments.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                Page | 9
U.S. Department of Energy, Office of Inspector General


     Objective 3
     Provide timely information to the Department so that prompt action can be taken to improve
     program performance.

     Objective Leaders – Deputy Inspector General for Audit and Inspections
                         Deputy Inspector General for Investigations


       Performance Measures                              Accomplishments

       3a. Issue 80 percent of audit and inspection      Exceeded Goal – Audits and Inspections
           reports no later than 60 days following       84 percent of audits and 100 percent of
           receipt of management comments.               inspections completed in FY 2012 were issued
                                                         within 60 days following receipt of
                                                         management comments.

       3b. Ensure that the average time to issue         Exceeded Goal – Investigations
           Investigative Reports to Management is        Investigative Reports to Management were
           47 days or less following final resolution    issued in 33 days, on average, following final
           of criminal, civil, and administrative        resolution of criminal, civil, and/or
           investigations.                               administrative action.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                 Page | 10
U.S. Department of Energy, Office of Inspector General


     Objective 4
     Strengthen financial management and cyber security through completion of mandatory reviews
     in accordance with OMB and other applicable requirements.

     Objective Leaders – Deputy Inspector General for Audit and Inspections


       Performance Measures                              Accomplishments

       4a. Complete annually, by the established         Met Goal – Audits and Inspections
           due date, the Department’s                    The Department’s FY 2012 Consolidated
           Consolidated Financial Statement audits       Financial Statement was issued on
           to determine whether the financial            November 15, 2012, and resulted in an
           statements are free from material             unqualified opinion.
           misstatement.

       4b. Conduct annually, by the established          Exceeded Goal – Audits and Inspections
           due date, the review of the                   Reviews of the Department’s unclassified
           Department’s classified and unclassified      information systems security program, in
           information security system programs in       accordance with the Federal Information
           accordance with the Federal Information       Security Management Act of 2002, were
           Security Management Act of 2002.              completed in October 2012, ahead of the
                                                         OMB’s reporting date of November 15, 2012.

       4c. Initiate 10 “Statement of Costs Incurred      Exceeded Goal – Audits and Inspections
           and Claimed” audits annually to assess        A total of 13 “Statement of Costs Incurred and
           internal controls over costs claimed by       Claimed” audits were initiated.
           the Department’s major contractors.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                               Page | 11
U.S. Department of Energy, Office of Inspector General


     Objective 5
     Concentrate investigative efforts on allegations of criminal and civil violations of law that
     adversely impact major Department programs and operations, with emphasis on maximizing
     the recovery of public resources and deterring future wrongdoing.

     Objective Leaders – Deputy Inspector General for Investigations


       Performance Measures                              Accomplishments

       5a. Achieve an annual acceptance rate of 74       Exceeded Goal – Investigations
           percent for cases presented for               The OIG achieved a prosecutorial acceptance
           prosecutorial consideration, with an          rate of 95 percent.
           enhanced focus on Recovery Act cases.

       5b. Ensure 75 percent of all cases opened         Exceeded Goal – Investigations
           focus on key areas of Department              Of the cases opened in FY 2012, 91 percent
           vulnerability, specifically contract and      focused on key areas of Department
           grant fraud, environmental, safety and        vulnerability.
           health violations, issues impacting the
           integrity of government officials, or
           technology crimes.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                Page | 12
U.S. Department of Energy, Office of Inspector General


     Objective 6
     Coordinate with other law enforcement agencies to establish effective networks in order to
     identify areas that are most vulnerable to waste, fraud, and abuse.

     Objective Leaders – Deputy Inspector General for Investigations


       Performance Measures                              Accomplishments

       6a. Ensure 26 percent of all cases opened         Exceeded Goal – Investigations
           were joint agency/task force                  The OIG opened 133 cases during FY 2012;
           investigations with external law              40 percent were joint agency/task force
           enforcement agencies, such as the             investigations.
           Federal Bureau of Investigation and
           other OIGs, including other agencies with
           Recovery Act funding.


     Objective 7
     Heighten awareness of potential fraud among internal and external customers.

     Objective Leaders – Deputy Inspector General for Investigations


       Performance Measures                              Accomplishments

       7a. Provide 42 fraud awareness briefings          Exceeded Goal – Investigations
           annually to Department and contractor         OIG investigative personnel provided 79 fraud
           employees and managers and fund               awareness briefings in FY 2012.
           recipients, with special emphasis on
           Recovery Act-related fraud.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                               Page | 13
U.S. Department of Energy, Office of Inspector General


                                                     Goal 3

                                            Support the taxpayer.

     Objective 8
     Provide the Department and the public with an effective and efficient mechanism to report
     waste, fraud, and abuse.

     Objective Leader – Deputy Inspector General for Investigations
                        Counsel to the Inspector General


       Performance Measures                               Accomplishments

       8a. Ensure that the average time to analyze        Exceeded Goal – Investigations
           and predicate Hotline complaints is 6          FY 2012 complaints to the OIG Hotline were
           days or less from receipt of allegations.      analyzed and predicated on average within 3
                                                          days of receipt.

       8b. Ensure that the average time to refer          Goal Not Met – Investigations
           Hotline complaints to the Department or        The average time to refer FY 2012 Hotline
           other agency management is 16 days or          complaints to Department or other agency
           less following a referral decision.            management was 17 days after disposition
                                                          decision. As a result of process refinement, the
                                                          average referral time was reduced to 15 days
                                                          for the last 3 quarters of the fiscal year.

       8c. Meet statutory Whistleblower                   Met Goal – Counsel to the Inspector General
           Retaliation Investigation requirements.        Whistleblower Retaliation Investigation
                                                          requirements were met.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                 Page | 14
U.S. Department of Energy, Office of Inspector General


     Objective 9
     Make the public aware of OIG reports.

     Objective Leader – Deputy Inspector General for Management and Administration


       Performance Measures                               Accomplishments

       9a. Ensure that all OIG public reports             Met Goal – Management and Administration
           identified for inclusion on the Internet       All reports were posted within 3 working days
           are posted within 3 working days of            of submission to the Secretary.
           submission to the Secretary, unless
           otherwise specified by the Inspector
           General.


     Objective 10
     Provide a structure for ensuring a skilled and efficient workforce.

     Objective Leader – Deputy Inspector General for Audits and Inspections
                        Deputy Inspector General for Investigations


       Performance Measures                               Accomplishments

       10a. Ensure that all auditors meet the             Met Goal – Audits and Inspections
            training requirements as specified by         All auditors and inspectors met the required
            generally accepted Government                 training specified by both the Government
            Auditing Standards and that all               Auditing Standards and the Council of the
            inspectors meet the training                  Inspectors General on Integrity and Efficiency
            requirements as specified by the              for Inspection and Evaluation.
            Council of the Inspectors General on
            Integrity and Efficiency for Inspection
            and Evaluation.

       10b. Ensure that all investigators meet the        Met Goal – Investigations
            training requirements as specified by         All investigators met training requirements,
            Federal law enforcement and other             including those prescribed by statue.
            related investigative standards.


Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                 Page | 15
U.S. Department of Energy, Office of Inspector General


 Our FYs 2013 and 2014 Performance Plan

     Our work is important to the Department’s success in fulfilling its Strategic Plan. The OIG must
     ensure that its resources and activities cover the issues and concerns most critical to the
     Department. This Performance Plan identifies the OIG performance targets for FYs 2013 and
     2014 goals that will help the OIG better plan its priorities and assist the Department in
     identifying and taking corrective action to improve areas most vulnerable to waste, fraud, and
     mismanagement.

     For FYs 2013 and 2014, the OIG will measure its accomplishments against the following
     performance measures:

                                                     Goal 1

                              Promote Presidential reform initiatives,
                     Secretarial mission priorities and Congressional requests.

     Objective 1
     Conduct reviews seeking positive change in the Department relating to the implementation of
     Presidential reform initiatives, the Secretary’s mission priorities, and Congressional requests.

                                                          FY FY FY FY FY FY FY
       Performance Measures                              2008 2009 2010 2011 2012 2013 2014
       1a. Complete reviews that address                 Target   Target   Target   Target   Target   Target    Target
           Presidential, Secretarial, and OIG
           initiatives, priorities, and/or                N/A      N/A      N/A      N/A      75%      75%       75%

           challenges as identified in FY                Actual   Actual   Actual   Actual   Actual
           2013.
                                                          64%      61%      78%      68%      86%

       1b. Conduct inspections that address              Target   Target   Target   Target   Target   Target    Target
           safety or security-related topics.
                                                          N/A      50%      30%      30%      30%      30%       30%

                                                         Actual   Actual   Actual   Actual   Actual

                                                          N/A     62.5%     45%      60%      50%




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                             Page | 16
U.S. Department of Energy, Office of Inspector General


                                                     Goal 2

              Improve economy and efficiency, and reduce waste, fraud, and abuse
                                  within the Department.

     Objective 2
     Concentrate OIG efforts on issues that have the greatest impact and usefulness to the
     Department.

                                                          FY FY FY FY FY FY FY
       Performance Measures                              2008 2009 2010 2011 2012 2013 2014
       2a. Ensure that performance reviews               Target   Target   Target   Target   Target   Target    Target
           include an analysis of program
           accomplishments and the use of                100%     100%     100%     100%     100%     100%      100%

           metrics to measure results.                   Actual   Actual   Actual   Actual   Actual

                                                         100%     100%     100%     100%     100%

       2b. Ensure that performance audits                Target   Target   Target   Target   Target   Target    Target
           include recommendations leading
           to demonstrable cost savings,                  57%      57%      57%      57%      57%      75%       75%

           program efficiencies, and/or funds            Actual   Actual   Actual   Actual   Actual
           put to better use.
                                                          69%      78%      86%      88%      97%

       2c. Complete follow-up reviews                    Target   Target   Target   Target   Target   Target    Target
           annually to determine the status
           and efficacy of corrective actions.             5        5        5        5        5        5         5

                                                         Actual   Actual   Actual   Actual   Actual

                                                           7        8        6       10       10




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                             Page | 17
U.S. Department of Energy, Office of Inspector General


                                                      FY FY FY FY         FY   FY FY
       Performance Measures                          2008 2009 2010 2011 2012 2013 2014
       2d. By June 30, 2013, complete an                 Target   Target   Target   Target    Target        Target    Target
           annual risk-based programmatic
           assessment that considers OIG             6/2008       6/2009   6/2010   6/2011    6/2012        6/2013    6/2014

           institutional knowledge; past
           program performance; funding                  Actual   Actual   Actual   Actual    Actual
           levels; Presidential, Secretarial,
           and congressional concerns; and,              100%      90%     6/2010   6/2011    5/2012

           input from Department program
           managers.

       2e. Ensure planned performance                    Target   Target   Target   Target    Target        Target    Target
           audits and inspections address
           high-risk areas as identified in               80%      80%      80%      80%        80%          80%       80%

           the OIG annual risk-based                     Actual   Actual   Actual   Actual    Actual
           programmatic assessments.
                                                                                               Audits:
                                                                                                91%
                                                          91%      90%      87%      83%
                                                                                             Inspections:
                                                                                                86%




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                                   Page | 18
U.S. Department of Energy, Office of Inspector General


     Objective 3
     Provide timely information to the Department so that prompt action can be taken to improve
     program performance.

                                                          FY FY FY FY FY FY FY
       Performance Measures                              2008 2009 2010 2011 2012 2013 2014
       3a. Issue audit and inspection reports            Target   Target   Target   Target   Target   Target    Target
           no later than 60 days following
           receipt of management                          80%      80%      80%      80%      80%      80%       80%

           comments.                                     Actual   Actual   Actual   Actual   Actual

                                                         100%      83%     100%      93%      84%

       3b. Issue Investigative Reports to                Target   Target   Target   Target   Target   Target    Target
           Management in a timely manner
           once criminal, civil, and                     55 days 55 days 50 days 48 days 47 days 46 days 45 days

           administrative investigative                  Actual   Actual   Actual   Actual   Actual
           activity is finalized.
                                                         40 days 23 days 10 days 17 days 33 days




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                             Page | 19
U.S. Department of Energy, Office of Inspector General


     Objective 4
     Strengthen financial management and cyber security through completion of mandatory reviews
     in accordance with OMB and other applicable requirements.

                                                 FY       FY        FY        FY        FY        FY          FY
      Performance Measures                      2008     2009      2010      2011      2012      2013        2014
      4a. Complete by the established           Target   Target    Target    Target    Target     Target      Target
         due date, the Department’s
         Consolidated Financial                11/15/08 11/15/09 11/15/10 11/15/11 11/15/12      11/15/13   11/17/14

         Statement audits to determine          Actual   Actual    Actual    Actual    Actual
         whether the financial
         statements are free from              11/10/08 11/15/09 11/12/10 11/15/11 11/15/12
         material misstatement.

      4b. Complete annually, by the             Target   Target    Target    Target    Target     Target      Target
         established due date, the
         Department’s classified and            9/30/08 11/18/09 11/15/10 11/15/11 11/15/12      11/15/13   11/17/14

         unclassified information               Actual   Actual    Actual    Actual    Actual
         security system programs in
         accordance with the Federal            9/2008   10/2009   10/2010   10/2011   10/2012
         Information Security
         Management Act of 2002.

      4c. Initiate “Statement of Costs          Target   Target    Target    Target    Target     Target      Target
          Incurred and Claimed” audits
          annually to assess internal             10       10        10        10        10        10          10
          controls over costs claimed by
                                                Actual   Actual    Actual    Actual    Actual
          the Department’s major
          contractors.                            10       10        9         13        13




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                        Page | 20
U.S. Department of Energy, Office of Inspector General


     Objective 5
     Concentrate investigative efforts on allegations of criminal and civil violations of law that
     adversely impact major Department programs and operations, with emphasis on maximizing
     the recovery of public resources and deterring future wrongdoing.

                                                          FY FY FY FY FY FY FY
       Performance Measures                              2008 2009 2010 2011 2012 2013 2014
       5a. Achieve an annual acceptance                  Target   Target   Target   Target   Target   Target    Target
           rate for cases presented for
           prosecutorial consideration.                   72%      72%      72%      74%      74%      74%       75%



                                                         Actual   Actual   Actual   Actual   Actual

                                                          94%      89%      90%      96%      95%

       5b. Ensure all cases opened focus on              Target   Target   Target   Target   Target   Target    Target
           key areas of Department
           vulnerability, specifically contract           N/A      75%      75%      75%      75%      75%       75%

           and grant fraud, environmental,               Actual   Actual   Actual   Actual   Actual
           safety, and health violations,
           issues impacting the integrity of              N/A      77%      77%      88%      91%
           government officials, or
           technology crimes.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                             Page | 21
U.S. Department of Energy, Office of Inspector General


     Objective 6
     Coordinate with other law enforcement agencies to establish effective networks in order to
     identify areas that are most vulnerable to waste, fraud, and abuse.

                                                          FY FY FY FY FY FY FY
       Performance Measures                              2008 2009 2010 2011 2012 2013 2014
       6a. Ensure all cases opened were joint            Target   Target   Target   Target   Target   Target    Target
           agency/task force investigations
           with external law enforcement                  25%      25%      25%      25%      26%      26%       27%

           agencies, such as the Federal                 Actual   Actual   Actual   Actual   Actual
           Bureau of Investigation and other
           OIGs.                                          42%      29%      34%      42%      40%




     Objective 7
     Heighten awareness of potential fraud among internal and external customers.

                                                          FY FY FY FY FY FY FY
       Performance Measures                              2008 2009 2010 2011 2012 2013 2014
       7a. Provide fraud awareness briefings             Target   Target   Target   Target   Target   Target    Target
           annually to Department and
           contractor employees and                       28       28       35       40       42       44         45

           managers.                                     Actual   Actual   Actual   Actual   Actual

                                                          47       84       95       86       79




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                             Page | 22
U.S. Department of Energy, Office of Inspector General


                                                     Goal 3

                                            Support the taxpayer.

     Objective 8
     Provide the Department and the public with an effective and efficient mechanism to report
     waste, fraud, and abuse.

                                                          FY FY FY FY FY FY FY
       Performance Measures                              2008 2009 2010 2011 2012 2013 2014
       8a. Timely analyze and predicate                  Target    Target   Target   Target   Target    Target    Target
           Hotline complaints from receipt of
           allegations.                                  85% in    90% in   90% in   90% in   6 days    6 days    5 days
                                                         7 days    7 days   7 days   7 days   or less   or less   or less

                                                         Actual    Actual   Actual   Actual   Actual

                                                         100% in   99% in   99% in   95% in   3 days
                                                          7 days   7 days   7 days   7 days

       8b. Timely refer Hotline complaints to            Target    Target   Target   Target   Target    Target    Target
           the Department or other agency
           management following a referral               85% in 90% in 90% in 90% in 16 days 16 days 16 days
                                                         14 days 14 days 14 days 14 days or less or less or less
           decision.
                                                         Actual    Actual   Actual   Actual   Actual

                                                         100% in 98% in 59% in 17% in 17 days
                                                         14 days 14 days 14 days 14 days

       8c. Meet statutory Whistleblower                  Target    Target   Target   Target   Target    Target    Target
           Retaliation Investigation
           requirements.                                  100%     100%      N/A     100%     100%      100%      100%

                                                         Actual    Actual   Actual   Actual   Actual

                                                          100%     100%      N/A     100%     100%




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                              Page | 23
U.S. Department of Energy, Office of Inspector General


     Objective 9
     Make the public aware of OIG reports.

                                                          FY FY FY FY FY FY             FY
       Performance Measures                              2008 2009 2010 2011 2012 2013 2014
       9a. Ensure that all OIG public                    Target   Target   Target   Target   Target   Target   Target
           performance reports are posted
           to the internet, on average, within                                                          5       5
                                                         100%     100%     100%     100%     100%     working working
           5 working days of submission to
                                                                                                       days    days
           the Department, unless otherwise
           specified by the Inspector                    Actual   Actual   Actual   Actual   Actual
           General.
                                                         100%     100%     100%     100%     100%



     Objective 10
     Provide a structure for ensuring a skilled and efficient workforce.

                                                          FY FY FY FY FY FY FY
       Performance Measures                              2008 2009 2010 2011 2012 2013 2014
       10a. Ensure that all auditors meet the            Target   Target   Target   Target   Target   Target   Target
            training requirements as
            specified by generally accepted              100%     100%     100%     100%     100%      100%    100%
            Government Auditing Standards
            and that all inspectors meet the             Actual   Actual   Actual   Actual   Actual
            training requirements as
            specified by the Council of the              100%     100%     100%     100%     100%

            Inspectors General on Integrity
            and Efficiency for Inspection and
            Evaluation.

       10b. Ensure that all investigators                Target   Target   Target   Target   Target   Target   Target
           meet the training requirements
           as specified by Federal law                   100%     100%     100%     100%     100%      100%    100%

           enforcement and other related                 Actual   Actual   Actual   Actual   Actual
           investigative standards.
                                                         100%     100%     100%     100%     100%



Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                           Page | 24
U.S. Department of Energy, Office of Inspector General


 Appendix A

                                    Audit Work Plan for FY 2013

     Central Audits Division
            Ecotality
            Funding Overlap
            Follow-up on Smart Grid Investment Grant
            DOE's Loan Program Office's Portfolio Management
            Office of Fossil Energy's Regional Carbon Sequestration Partnerships
            Advanced Manufacturing Office's Combined Heat and Power Systems
            DOE's Management of Contaminated Non-EM Facilities
            Unneeded Real Estate
            Review of For-Profit Grantees for selected DOE programs
            Commercialization Efforts at National Laboratories
            Research Misconduct at Office of Science
            Public Dissemination of Research Results
            BPA's Management of Borrowing Authority Construction
            Controls Over PMA's Use of Hedging Instruments
            PMA's Management of Transmission Line Perimeter Maintenance
            DOE's Management of Utility Rate Contracts
            Water Power Program
            Contractor Travel and Temporary Duty Costs


     Eastern Audits Division
            Follow-up Audit of Intergovernmental Personnel Act Assignments
            Audit of the Department's Management of General Support Services Costs
            Audit of the Department’s Management and Utilization of Nanotechnology Facilities
            Audit of the Department's Critical Spare Parts Programs
            The Department’s M&O Subcontracts Regarding Responsibility Matters
            The Department's Controls over Leased Space at Selected Field Sites
            Audit of Department and Contractor Employee Pensions
            Audit of the Department of Energy's Scientific User Facilities
            West Valley Demonstration Project
            Future Gen Cooperative Agreement




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                             Page | 25
U.S. Department of Energy, Office of Inspector General


     Eastern Audits Division (con’t)
            Strategic Petroleum Reserve's Facilities and Drawdown Readiness
            Follow-up of Energy Savings Performance Contract Delivery Orders
            Depleted Uranium Conversion Operations
            Surveillance Activities at Select Legacy Management Closure Sites
            EM’s Management of Staff Augmentation Relocation and Temporary Living Costs
            Program Management at Portsmouth D&D Projects
            Planning for the Shutdown and Turnover of the Paducah Gaseous Diffusion Plant
            Acquisition and Use of Helium-3 by Department of Energy Programs
            Savannah River Site H-Canyon Operations
            Follow-up of Treatment of High Level Waste at the Savannah River Site
            Environmental Management's Consolidated Business Center
            Salt Waste Processing Facility Project Management
            Implementation of the Security Improvement Program at the Y-12 National Security
             Complex
            Follow-up Audit on the Department's Management and Use of Mobile Computing
             Devices and Services
            The Department's Progress in Implementing Cloud Computing Activities
            Cyber Security for Energy Delivery Systems
            NNSA's Information Technology Transformation Activities
            Follow-up Audit on the Department's Efforts to Develop a Commodity-Centered IT
             Environment
            Follow-up Audit on the Department of Energy's Management of Information Technology
             Hardware
            Sustainability of the Department of Energy's Telecommunications Infrastructure
            Follow-up Audit on the Department's Acquisition and use of Software Licenses
            DOE's Implementation of the Federal Information Security Management Act
            FERC's Implementation of the Federal Information Security Management Act


     Western Audits Division
            Audit of the Spallation Neutron Source at Oak Ridge National Laboratory
            Enriched Uranium Operations at Y-12 National Security Complex
            Oak Ridge National Laboratory's Carbon Fiber Technology Center
            The Department of Energy's International Thermonuclear Experimental Reactor (ITER)
             Responsibilities
            Depleted Uranium Operations at Y-12 National Security Complex




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                            Page | 26
U.S. Department of Energy, Office of Inspector General


     Western Audits Division (con’t)
            Guest Houses at Department of Energy Sites
            Management of Biosafety Laboratories
            Nuclear Detonation Detection Subprogram
            National Ignition Facility
            Achieving Efficiencies of Projected Contract Changes
            NNSA Contractors’ Health/Post Retirement Benefit Plans
            NNSA's Neutron Generator Replacement
            Second Line of Defense Program
            B-61 Life Extension Program
            Follow-up on the Los Alamos Hydrodynamic Test Program
            Sandia National Laboratories Readiness in Technical Base and Facilities' (RTBF)
            NNSA's Implementation of Quantifications of Margin and Uncertainties (QMU)
            NNSA Contractors' Site Specific Support Costs
            Follow-Up Safety Basis and Quality Assurance at the Los Alamos National Laboratory
            Los Alamos National Laboratory's Ability to meet U.S. Commitments of Plutonium
            Disposition Using the Advance Recovery and Integrated Extraction System (ARIES)
            Los Alamos National Laboratory's Purchasing Systems
            The Kansas City Responsive Infrastructure Manufacturing and Sourcing Project (KCRIMS)
            Security at the Nevada National Security Site (NNSS)
            Pantex Plant and Y-12 Complex Contract Consolidation
            Follow-up NNSA M&O Contractor Legal Costs
            Long Term Storage of Cesium and Strontium Capsules at the Hanford Site
            The Hanford Site 2015 River Corridor Closure Project
            The Department's Management of the Waste Treatment and Immobilization Plant
             (WTP) Project
            Department's Implementation of Agreements to Commercialize Technology
            The Department's Management of the Radioisotope Power Systems (RPS) Program
            The Department's Management of Rare Earth Materials Research
            The Global Threat Reduction Initiative's Highly Enriched Uranium Reactor Conversion
             Subprogram
            Advanced Test Reactor Management
            NNSA’s Management of the Nuclear Materials Safeguard and Security Upgrades Project
             at Los Alamos National Laboratory




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                             Page | 27
U.S. Department of Energy, Office of Inspector General


     Government Management Reform Act (GMRA)
            Department of Energy’s Consolidated Financial Statement Audit FY 2013
            FERC’s Financial Statement Audit FY 2013
            Decommissioning and Decontamination Fund FY 2013 GMRA
            Southwestern Power Administration Financial Statement Audit FY 2013
            Nuclear Waste Fund FY 2013
            IT Management Letter FY 2013
            Financial Management Letter FY 2013


     Statement of Costs Incurred and Claimed (SCIC)
            Los Alamos National Laboratory – Los Alamos National Security LLC 2011 SCIC
            Savannah River – Savannah River Nuclear Solutions 2011 SCIC
            Lawrence Livermore National Laboratory – Lawrence Livermore National Security LLC
             2011 SCIC
            Sandia National Laboratories – Lockheed Martin 2011-2012 SCIC
            Oak Ridge National Laboratory – UT Battelle 2011 SCIC
            Naval Reactors – Bechtel Marine Propulsion Corporation 2012 SCIC
            Idaho National Laboratory – Battelle Energy Alliance LLC 2012 SCIC
            Oak Ridge Y-12 – Babock & Wilcox Y-12 LLC 2011 SCIC
            Lawrence Berkeley National Laboratory – The Regents of University of California 2011
             SCIC
            Pacific Northwest National Laboratory – Battelle Memorial Institute 2012 SCIC
            National Renewable Energy Laboratory – Alliance for Sustainable Energy 2009-2011 SCIC
            Ames National Laboratory – Iowa State University 2009-2012 SCIC




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                             Page | 28
U.S. Department of Energy, Office of Inspector General


                               Inspections Work Plan for FY 2013

     Eastern Region
            Health and Wellness Safety at a Selected Department Site
            Radiation Protection Program at a Selected Department Site
            Safety Risks to Workers at a Selected Department Site
            Lock and Key Program at Selected Department Sites
            Perimeter Security at a Selected Department Site
            Restricting Special Protection Officer Duties
            Protection of Classified Information at Offsite Department Facilities
            Controls Over the Department's Classification of Information
            Utilization of Advanced Security Screening Technology at High Risk Sites
            Severance Payments at Department Sites
            Human Capital Planning Procedures
            Sensitive Property at Selected Department Sites
            Purchase Card Transactions at Selected Department Site
            Department and its Contractor's Substance Abuse Testing Program
            Follow-up Review on Department Conferences
            Follow-up Inspection on the Accountability and Control of Sealed Radioactive Sources at
             Selected Department of Energy Sites
            Follow-up Inspection on Ammunitions Control within the Office of Secure
             Transportation


     Western Region
            Earthquake Preparedness at a Selected Department Site
            Hazardous Materials and Safety Training at a Department Site
            Readiness of the Department's Federal Radiological Monitoring and Assessment Center
            Safety of Z-Machine and Annular Core Research Reactor at a Department Site
            Use of Waste Characterization Strategy Form at a Department Site
            Selected Aspects of Idaho National Laboratory's ISMS
            NNSA's Controls Over Hazardous Chemicals
            Sole Source Subcontracting at SLAC National Accelerator Laboratory
            Non-Hazardous Solid Waste Recycling Program at a Selected Department Site
            Professional Research or Teaching Leave at Department Sites
            Purchase Card Transactions at a Selected Department Site
            Department's Use of U.S. Flag Vessels
            Excess Government Property at a Department Site
            Follow-up Inspection on Joint Technical Operations Team
            Follow-up Inspection on Management of Excess Weapons and other Sensitive
             Equipment


Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                               Page | 29
U.S. Department of Energy, Office of Inspector General


 Appendix B

                       Investigative Work Plan Priorities for FY 2013

     Contract and Grant Fraud
     A majority of the Department’s budget is expended on contracts and grants; therefore, the
     opportunity for fraud to occur or exist within various Department programs is significant. Given
     the continuing potential for significant fraud, to include the Department’s Loan Guarantee
     Program, in FY 2013 Investigations will continue to: (1) expand fraud awareness briefings
     throughout the Department, including NNSA; (2) prioritize contract and grant fraud
     investigations, placing emphasis on cases with a potential high dollar recovery to the
     Department; (3) coordinate and pursue leads referred by the OIG Office of Audits and
     Inspections; and (4) proactively identify and pursue contract and grant fraud investigations.


     Environment, Safety, and Health (ES&H)
     The Department’s program for cleaning up the environmental contamination caused by nuclear
     weapons research, production and testing is estimated to cost over $250 billion over the next
     several decades. The OIG has identified environmental cleanup as a Department Management
     Challenge that is likely to persist well into the future. In FY 2013, Investigations will: (1) pursue
     investigations involving potential ES&H violations; (2) continue liaison efforts with ES&H
     contacts in the Department, NNSA, and other Government agencies; and (3) provide ES&H
     awareness briefings throughout the Department complex.


     Issues Impacting the Integrity of Government Officials
     Government officials have a responsibility to maintain the public's trust and confidence in the
     integrity of the Federal Government programs and operations. In FY 2013, based on
     information received through the OIG Hotline and other sources, Investigations will continue to
     work with DOJ to address allegations of criminal misconduct and ethical lapses on the part of
     government officials. Investigations will also continue to investigate related activities that may
     have resulted in fraud, waste, abuse and mismanagement.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                                     Page | 30
U.S. Department of Energy, Office of Inspector General


     Technology Crimes
     Information technology, another of the Department’s major issue areas, received a significant
     amount of Investigations’ resources and attention during FY 2012. Investigations’ Technology
     Crimes Section (TCS) is staffed by investigators with the specialized skills necessary to
     proactively and reactively investigate the expanding number of complex technology crimes that
     are allegedly occurring within many of the Department’s programs. TCS further strengthens
     Investigations’ support to the Department, including NNSA, in detecting, preventing and
     investigating illegal network intrusions. During FY 2013, TCS will: (1) continue to proactively
     support fraud investigations through consultations and forensic media analysis; (2) investigate
     incidents of technology crimes and non-compliance with applicable regulations involving
     protection of the information infrastructure throughout the Department; (3) extend
     Investigations’ role in technology incident response and investigations in the Department; and
     (4) provide technology crimes awareness briefings throughout the Department complex.




Annual Performance Report FY 2012
Annual Performance Plan FY 2013 & 2014
                                                                                               Page | 31
